May 8, 2009

WILLIAM P. GALLIGAN
SENIOR VICE PRESIDENT, OPERATIONS

SUBJECT: Management Advisory Report – Assessment of Overall Plant
         Efficiency (Report Number NO-MA-09-002)

This report presents the results of our assessment of overall plant efficiency (Project
Number 08XG042NO000). This is a cooperative effort with the U.S. Postal Service to
assess the overall efficiency of the processing and distribution network. This review
addresses operational risk. See Appendix A for additional information about this review.

Conclusion

Although the Postal Service has made significant improvements to operational
efficiency, opportunities exist to do even more. The current economic conditions, along
with continuing electronic diversion, have significantly reduced mail volumes. However,
management has not yet fully adjusted workhours in response to changes in workload,
nor achieved all possible efficiencies in mail processing operations provided by
opportunities such as the introduction of additional automation. We identified five major
areas needing improvement in order to realize significant workhour reductions.

    •   Overtime usage
    •   Mail handlings
    •   Use of automated and mechanized equipment
    •   Manual operations performance
    •   Allied operations1

The Postal Service could improve operational efficiency by reducing nearly 23 million
workhours based on fiscal year (FY) 2008 usage. This would allow the Postal Service
to achieve at least median productivity2 levels with all of its plants, and produce a cost
avoidance of $969,495,708 million based on workhour savings for 1 year. We will
report these workhour savings as unrecoverable questioned costs3 in our Semiannual
Report to Congress.



1
  These operations are recorded in Labor Distribution Code (LDC) 17 and include mail preparation, presort
operations, traying, sleeving, opening, pouching, and platform operations.
2
  We define median productivity as the First Handling Pieces (FHP) divided by Function 1 workhours achieved by the
median plant in each of the seven plant groupings.
3
  Unrecoverable questioned costs are costs deemed to be unnecessary.
Assessment of Overall Plant Efficiency                                                                 NO-MA-09-002



Workhours in Relation to Workload and Economic Conditions

From FYs 2006 to 2008, the Postal Service made great strides in reducing workhours
and increasing productivity, while improving the quality of service provided to the public.
Management reduced mail processing workhours by more than 39 million in FY 2008
compared with FY 2006. Productivity improved from an average 671 mailpieces per
hour in FY 2006 to an average 750 mailpieces per hour in FY 2008. Overtime also
decreased from 13.4 percent in FY 2006 to 7.6 percent in FY 2008. The Postal Service
made these improvements and still managed to increase service in all External First-
Class (EXFC) measurement system service categories, as shown in Table 1.

                                TABLE 1. EXFC SERVICE SCORES
                              FY    Overnight    2-Day     3-Day
                             2006      95.42     91.71     90.24
                             2007      96.12     93.99     92.62
                             2008      96.67     94.19     92.94

However, the Postal Service faces the challenge of making additional workhour
reductions as a result of large volume declines caused by poor economic conditions and
increased competition from electronic communications. For example, the Postal
Service experienced a volume decrease from FYs 2007 to 2008 of 9.5 billion mailpieces
(4.5 percent), contributing to a net loss of $2.8 billion in FY 2008. This was the single
largest volume drop in Postal Service history. This volume decline accelerated in
Quarter 1 of FY 2009, with volume declining by 5.2 billion mailpieces (9.3 percent) from
the same quarter in the prior year, leading to a loss of $384 million.

Postal Service debt increased in FY 2008 by the annual statutory limit of $3 billion; at
the end of the fiscal year, the debt reached $7.2 billion, which was nearly one-half of the
$15 billion statutory debt limit. These continuing and accelerating volume declines and
resulting income losses require the Postal Service to further reduce workhours. See
Appendix B for more information about these trends.

Efficiency of Operations

Opportunities exist for the Postal Service to further reduce mail processing workhours
by improving efficiency. For example, if the below-median 157 plants achieved just the
median productivity level for each respective plant group,4 the Postal Service could
realize workhour savings of 22.9 million based on FY 2008 workhours. The 22.9 million
workhours represent a 17.3 percent decrease in workhours used in FY 2008 and could
produce a cost savings in a single year of more than $969 million. See Appendix C for
our detailed analysis of this topic.


4
 The facilities that process mail are divided into seven groups ranked either according to mail volume outlined in the
Breakthrough Productivity Initiative (BPI) or ranked by facility square footage. See Appendix A for more information.




                                                           2
Assessment of Overall Plant Efficiency                                                                       NO-MA-09-002



Plants that performed below the median productivity level also had significantly higher
processing costs. For example, processing costs at Group 1 plants with productivity
above the median were $57 per 1,000 mailpieces FHP, compared with processing costs
at Group 1 plants with FHP productivity below the median, which were $101 per 1,000
mailpieces FHP. See Appendix D for a detailed explanation of this cost.

Potential Sources of Workhour Reductions

We identified several potential sources to improve efficiency and achieve the
recommended workhour reductions, which are explained below. These potential
sources total 18.9 million workhours, which represents 82.5 percent of the
recommended savings. Further, our analysis showed the Postal Service could reduce
workhours over the next 3 years through retirements and elimination of casual
employees. As of January 1, 2009, 18,606 employees were eligible to retire, which
represented a potential annual workhour reduction of 32.6 million workhours, far more
than needed to achieve the savings we identified. See Appendix E for additional
information.

Reduction in Overtime

Opportunities exist to reduce overtime. Generally speaking, in FY 2008, a higher
percentage of overtime workhours was used by plants below the median productivity
than by plants above the median productivity. If plants below the median achieved
average overtime percentage of the above-median plants, more than 1.4 million
workhours could be saved.

In addition, plants below the median did not use overtime in relation to the amount of
volume as effectively as plants above the median did. For example, the average
correlation between overtime usage and volume for Group 1 plants above the median
was .81, compared with .74 for plants below the median. The average correlation for
Group 2 plants above the median was .70, compared with .22 for plants below the
median.5 When overtime is not properly monitored and used in relationship to
workload, the Postal Service uses more workhours than necessary and incurs higher
labor costs as a result of the higher premium rate. See Appendix F for our detailed
analysis of this topic.

Mail Handlings

Excessive mail handling resulted in lower productivity and use of more workhours than
necessary to process mail volumes. In general, plants with lower FHP productivity
tended to handle the mail more times than plants with higher FHP productivity. For
example, Group 1 plants operating above the median FHP productivity had an average
handling ratio of 1.86. If all Group 1 plants handled mail at this ratio, almost 1.3 million

5
    The closer the correlation calculation is to 1, the better the use of overtime as it relates to workload changes.




                                                               3
Assessment of Overall Plant Efficiency                                                              NO-MA-09-002



workhours could be saved. Overall, the Postal Service could save more than 3.9 million
workhours if all plants with below-median FHP productivity handled mail at the average
handling ratio of the plants with above-median FHP productivity. See Appendix G for
our detailed analysis of this topic.

Automated and Mechanized Equipment

Plants that operated below the median FHP productivity generally had lower productivity
in automated and mechanized operations.6 If all plants with below-median FHP
productivity increased the pieces handled per hour by operation to the average of the
plants above-median FHP productivity, the Postal Service could save more than 2.8
million workhours in automated operations and almost 1 million workhours in
mechanized operations. In addition, plants with below-median productivity generally
had lower throughput, higher jams per 10,000 pieces, and higher reject rates on the
Delivery Bar Code Sorters (DBCS) and on the Automated Flat Sorting Machines
(AFSM) 100. See Appendix H for our detailed analysis of this topic.

Manual Operations

Opportunities to improve efficiency in manual operations were two fold. First, plants
with FHP productivity lower than the median also had lower productivity in manual
operations. The Postal Service could save more than 3.9 million workhours if plants
with below-median FHP productivity increased the mailpieces handled per hour to the
average of the plants above-median FHP productivity. Second, Postal Service
management did not take full advantage of automated and mechanized equipment and
consequently worked an excessive amount of mail manually. The Postal Service target
is for no more than 2.5 percent of the total letter volume and 6 percent of the total flat
volume to be sorted manually. The Postal Service could save nearly 1.5 million
workhours by using automation to sort letter and flat mail, instead of manual sortation.
See Appendix I for our detailed analysis of this topic.




6
 These operations include automated letter operations and the distribution of flat mail on automated and mechanized
equipment.




                                                         4
Assessment of Overall Plant Efficiency                                                               NO-MA-09-002



Allied Operations - LDC 17

Plants with below-median FHP productivity generally used a larger percentage of
workhours in allied operations7 (LDC 17) than plants with above-median FHP
productivity. Allied operations represented the largest percentage (39 percent) of
workhour usage in mail processing operations in FY 2008. See chart in Appendix A.
Because these operations are impacted by building size, we used the plant groupings
by square footage to determine potential workhour savings. We then calculated the
percentage of allied operations to total Function 1 workhours. By standardizing the
percentage of hours used in allied operations as compared with total Function 1
workhours used, the Postal Service could save more than 4 million workhours,
representing the greatest opportunity to improve efficiency and achieve workhour
reductions. See Appendix J for our detailed analysis of this topic.

Criteria

Title 39, U.S.C. Part 1, Chapter 1, § 101, states that the Postal Service “. . . shall
provide prompt, reliable, and efficient services to patrons in all areas . . . .” Further, the
September 2005 Postal Service Strategic Transformation Plan states “The Postal
Service will continue to provide timely, reliable delivery to every address at reasonable
rates.” The Postal Accountability and Enhancement Act, P.L. 109-435, Title II dated
December 20, 2006, highlights “. . .the need for the Postal Service to increase its
efficiency and reduce its costs, including infrastructure costs, to help maintain high
quality, affordable postal services. . . .”

Finally, the U.S. Government Accountability Office (GAO) stated in its testimony titled,
U.S. Postal Service Deteriorating Postal Finances Require Aggressive Actions to
Reduce Costs (GAO-09-332T, dated January 28, 2009), before the Subcommittee on
Federal Financial Management, Government Information, Federal Services, and
International Security, Committee on Homeland Security and Governmental Affairs,
U.S. Senate, that

         Accelerated volume declines and changes in the public's use of mail
         indicate that [the Postal Service] needs to move beyond incremental
         efforts and take aggressive action to streamline its workforce and
         network costs to assure its long-term viability.

Effect

The Postal Service could improve operational efficiency by reducing 22.9 million
workhours based on FY 2008 usage. Overall, the unnecessary workhours cost the
Postal Service more than $969 million per year, which represents over one-third of the


7
 These operations are recorded in LDC 17 and include mail preparation, presort operations, traying, sleeving,
opening, pouching, and platform operations.




                                                         5
Assessment of Overall Plant Efficiency                                       NO-MA-09-002



Postal Service net loss of $2.8 billion in FY 2008. See Appendix K for a detailed
explanation of this cost avoidance.

Causes

Postal Service management has been addressing operational efficiency by reducing
workhours to better align with budgeted workhours. For example, they reduced FY
2008 mail processing workhours by approximately 8 percent from FY 2007 levels.
However, management had not evaluated operational efficiency by assessing
performance against productivity targets and other plants, and adjusting staff and
equipment resources in response to workload changes and severely declining economic
trends.

We recommend the Senior Vice President, Operations:

1. Reduce 22.9 million workhours by FY 2011 with an associated economic impact of
   $969,495,708. We will report $969,495,708 in unrecoverable questioned costs in
   our Semiannual Report to Congress.

2. Periodically evaluate operating efficiency by assessing performance against
   productivity targets and adjusting resources (staff and equipment) in response to
   workload changes.

Management’s Comments

Management agreed with the recommendations and monetary impact. In addition,
management has been proactive and already begun to take corrective action. See
Appendix L for management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and corrective actions should resolve
the issues identified in the report. The OIG recognizes that management has already
begun to significantly reduce workhours and will in all likelihood complete the workhour
reductions prior to the target date.

The OIG considers recommendation 1 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed. We will report $969,495,708 in questioned
costs in our Semiannual Report to Congress.




                                            6
Assessment of Overall Plant Efficiency                                     NO-MA-09-002



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, Director,
Network Processing, or me at (703) 248-2100.


     gned by Office of Inspector Gen
     ERIFY authenticity with Approve
for
Robert J. Batta
Deputy Assistant Inspector General
 for Mission Operations

Attachments

cc: Patrick R. Donahoe
    Jordan M. Small
    David E. Williams, Jr.
    Robert D. Williamson
    Katherine S. Banks




                                          7
Assessment of Overall Plant Efficiency                                                                    NO-MA-09-002



                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Mail-processing is an integrated group of activities8 required to sort and distribute mail
for dispatch and eventual delivery. Post offices, stations, and branches send outgoing
mail to processing and distribution centers (P&DC) and processing and distribution
facilities (P&DF) for processing and dispatch for a designated service area. P&DCs
report directly to area offices on mail processing matters. They also provide instructions
on the preparation of collection mail, dispatch schedules, and sort plan requirements to
associate offices and mailers. The Postal Service has 317 facilities with mail
processing operations.

The facilities that process mail are divided into seven groups ranked either according to
mail volume outlined in the BPI9 or by facility square footage. Charts 1 and 2 below
show the percentages of mail processing facilities contained in each group.

                                 Chart 1. PLANT GROUPING BASED ON
                                 FY 2006 BPI GROUPINGS (WORKLOAD)



                                      Group 7                              Group 1
                                       17%                                  15%

                                                                                           Group 2
                       Group 6                                                              11%
                        15%




                                                                                           Group 3
                                                                                            10%
                                   Group 5
                                                                        Group 4
                                    16%
                                                                         16%




8
  Mail processing activities include culling, edging, stacking, facing, canceling, sorting, tying, pouching, and bundling.
9
  The BPI was established by the Postal Service to drive costs out of the organization while creating continuous
improvement capability. The BPI uses comparative monitoring and performance ranking in operating units across the
country. Higher performing units are used as models and are studied to identify best practices. Standard procedures
are established based on best practices and training is developed to share performance expectations. Targets are
set to drive performance toward the highest levels. When BPI targets are achieved, responsible teams and
employees are recognized and rewarded.




                                                            8
Assessment of Overall Plant Efficiency                                                                               NO-MA-09-002



                                               Chart 2. PLANT GROUPING BASED ON
                                                  BUILDING SQUARE FOOTAGE




                                                                       Logistic and
                                                                  Distribtution Centers
                                           500,001 or more                  5%
                                                 3%
                                                                                              0 to 150,000 1 Floor
                          300,001 to 500,000                                                           58%
                                 10%
              150,001 to 300,000
                Multi Floor 3%

                                     150,001 to 300,000 1 Floor
                                                19%




                                    0 to 150,000 Multi Floor
                                               2%




Labor Distribution Codes

The Postal Service uses LDC to compile workhour, labor utilization, and other financial
reports for management use by functional category.10 For example, LDC 11 is used to
record workhours used in automated letter operations, LDC 12 is used to record
workhours used in distribution of flat mail on automated and mechanized equipment,
and LDC 14 is used to report manual sortation of letters and flats. The Postal Service
also uses LDC 17 to record hours used by employees involved in allied operations (mail
processing operations other than distribution).

The largest percentage of workhour usage in mail processing operations in FY 2008
was in LDC 17, and the largest amount of FHP volume in FY 2008 was recorded in LDC
11. See FY 2008 workhour usage percentages and FHP volume percentages by LDC
in Charts 3 and 4.




10
     Mail processing operations are in the Function 1 category.




                                                                                          9
Assessment of Overall Plant Efficiency                                                NO-MA-09-002



              Chart 3. FY 2008 FUNCTION 1 WORKHOUR USAGE BY LDC


                             LDC 18               LDC 10
                               9%                   6%
                                                                    LDC 11
                                                                     17%




                                                                             LDC 12
   LDC 17                                                                      4%
    39%                                                                LDC 13
                                                                        10%

                                         LDC 15            LDC 14
                                           3%               12%




                   Chart 4. FY 2008 FUNCTION 1 FHP VOLUME BY LDC


                              LDC 13     LDC 14
                  LDC 12        1%        5%
                   10%




                                                                         LDC 11
                                                                          84%



OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to assess the overall efficiency of the processing and distribution
network. To accomplish our objective, we identified trends in mail volume, workhours,
overtime, and productivity for each of the seven plant groups for FY 2008. We
calculated the median FHP per workhour for FY 2008, ranked the plants within each
group, and used the median productivity to calculate workhour savings for plants falling
below the median level. We calculated workhour savings by raising the productivity
level of the plants below the median level to the median productivity level. We also
calculated overtime and handling ratios for each plant. We examined the costs of
manual letter and flat operations, evaluated staffing and complement and evaluated



                                                  10
Assessment of Overall Plant Efficiency                                                          NO-MA-09-002



whether significant reductions could be made through attrition. We reviewed
workhours, volumes and productivities for LDC 11, 12, and 14. We determined the ratio
of LDC 17 workhours to total workhours for FY 2008 for each of the seven plant
groups.11

To conduct this review, we relied on computer-processed data maintained by Postal
Service Operational Systems, which included the National Work Hour Reporting
system, the Management Operating Data System (MODS), the Web-based
Complement Information System, the Activity Based Costing (ABC) system, and the
Enterprise Data Warehouse system. We did not test the validity of controls over these
systems. However, we verified the accuracy of the data by confirming our analysis and
results with Postal Service managers and other data sources. In addition, we relied on
OIG audits of Postal Service systems. Also, an OIG review of MODS concluded the
data in this system was valid and reliable for the uses for which it was intended.12

We conducted this review from September 2008 through May 2009 in accordance with
the President’s Council on Integrity and Efficiency, Quality Standards for Inspections.
We discussed our observations and conclusions with management officials on February
4, 2009, and included their comments where appropriate.




11
   We did not include LDC 10, 13, 15, and 18 in this review for the following reasons. LDC 10 was not assessed
because supervisory hours are based on a ratio of supervisors to employees; supervisory staff will need to be
adjusted as workhours are reduced. LDC 13 was not assessed because the majority of volume is recorded as Total
Pieces Handled or Non Added, and because of a large array of equipment and methodology, a reasonable basis for
comparison could not be performed. LDC 15 did not represent a significant total of workhours. Finally, LDC 18
represents a wide variety of functions that could not provide a reasonable basis for comparison.
12
   Management Operating Data System (Report Number MS-AR-07-003, dated August 21, 2007).




                                                      11
Assessment of Overall Plant Efficiency                                  NO-MA-09-002



PRIOR AUDIT COVERAGE

                                                          FINAL
                                           REPORT                    MONETARY
           REPORT TITLE                                  REPORT
                                           NUMBER                     IMPACT
                                                          DATE
 Efficiency of the Oakland
 International Service Facility          NO-AR-04-007   3/31/2004    $17,013,959
 and the Regatta Facility
 Efficiency of the San Francisco
 International Service Center
                                         NO-AR-04-006   3/31/2004     44,263,283
 (ISC) and the General Service
 Administration Facility
 Efficiency of the New York
 International Service                   NO-AR-04-009   9/24/2004     98,355,534
 Center(ISC)
 Efficiency of the Air Mail
 Records Unit at the New York            NO-AR-04-011   9/24/2004     9,248,967
 International Service Center
 Efficiency Review of the
                                         NO-AR-05-004   12/8/2004     17,183,404
 Mansfield, OH Main Post Office
 Efficiency Review of the Akron,
 OH Processing and Distribution          NO-AR-05-009   3/30/2005     73,996,558
 Center
 Efficiency of the Air Mail
 Records Unit at the Los
                                         NO-AR-05-010   4/28/2005     1,847,858
 Angeles International Service
 Center
 Efficiency of the Los Angeles
                                         NO-AR-05-011   6/17/2005     26,075,474
 International Service Center
 Efficiency of the Air Mail
 Records Unit at the San
                                         NO-AR-05-012    9/6/2005     2,563,277
 Francisco International Service
 Center
 Efficiency Review of the
 Canton, OH Processing and               NO-AR-05-013   9/22/2005     63,617,713
 Distribution Center
 Efficiency of the Chicago Air
 Mail Records Unit at the J. T.
                                         NO-AR-06-002   12/22/2005    1,121,794
 Weeker International Service
 Center

 Efficiency Review of the                NO-AR-06-003   2/22/2006    118,383,220




                                              12
Assessment of Overall Plant Efficiency                                      NO-MA-09-002



 Washington Bulk Mail Center
 Efficiency of Carrier Sequence
                                         NO-AR-06-005   8/2/2006          3,688,930
 Barcode Sorters
 Efficiency Review of the Los
 Angeles, CA, Worldway Air Mail          NO-AR-06-006   9/12/2006       192,173,980
 Center
 Efficiency Review of the
 Bridgeport Processing and
                                         NO-AR-07-004   4/25/2007        17,740,107
 Distribution Facility, Bridgeport,
 CT
 Efficiency Review of the Dallas
                                         NO-AR-07-005   5/31/2007       134,971,638
 Bulk Mail Center
 Summary Audit on the
 Timeliness of Mail Processing,
                                         NO-AR-08-003   3/28/2008       231,337,397
 Transportation and Delivery in
 the Chicago District
 Powered Industrial Vehicle
 Management System at the
                                         NO-AR-08-007   9/15/2008         3,345,456
 Raleigh Processing and
 Distribution Center
 Powered Industrial Vehicle
 Management System at the
                                         NO-AR-08-010   9/23/2008         1,576,086
 Providence Processing and
 Distribution Center
 Powered Industrial Vehicle
 Management System at the
                                         NO-AR-09-001   12/3/2008         1,970,108
 Louisville, KY Processing and
 Distribution Center
                                                        TOTALS         $1,060,474,743

As shown in the preceding chart, we have conducted 20 efficiency reviews of mail
processing operations. These reviews showed that management had not evaluated
operational efficiency by assessing performance against productivity targets and other
plants, and adjusting staff and equipment resources in response to workload changes.
Consequently, more workhours were used than necessary to process the mail; in fact,
these reviews identified opportunities to improve efficiency and reduce more than 3.4
million workhours that would produce almost $1.1 billion in savings over 10 years. In
response to our recommendations, Postal Service management reduced workhours to
better align with budgeted workhours.




                                              13
Assessment of Overall Plant Efficiency                                               NO-MA-09-002



                           APPENDIX B: CHANGING ECONOMIC TRENDS

The Postal Service concluded FY 2008 with a net loss of $2.8 billion. The loss occurred
despite more than $2 billion in cost-cutting measures. Mail volume in FY 2008 totaled
202.7 billion mailpieces, a decline of 9.5 billion mailpieces, or 4.5 percent, compared
with the previous fiscal year, which represented the largest volume decline in Postal
Service history. Declining mail volume was a symptom of the worsening national
economy, particularly related to the financial and housing industries, and to trends
toward the use of electronic mail. Total operating revenue in FY 2008 was $74.9 billion,
virtually unchanged from FY 2007, while operating expenses totaled $77.7 billion. See
Table 2 below.

                  TABLE 2. FY 2008 STATEMENT OF OPERATIONS13
                                                        Years Ended September 30
                                                      2008        2007    2006
Operating revenue                                   $74,932     $74,778 $72,650
Operating expenses:
  Compensation and benefits                          53,585      54,186  54,665
  Retiree health benefits                             7,407      10,084   1,637
  Transportation                                      6,961       6,502   6,045
  Other                                               9,785       9,333   9,334
Total operating expenses                            $77,738     $80,105 $71,681
(Loss) Income from operations                        (2,806)    (5,327)    969
Interest and investment income                          36         195     167
Interest expense on deferred retirement obligations     —           —     (231)
Other interest expense                                 (36)        (10)    (5)
Net (Loss) Income                                   $(2,806)   $(5,142)   $900

At the time of our review, the downward trends were continuing. The Postal Service
ended Quarter 1 of FY 2009 with a net loss of $384 million, as the economic recession
contributed to a 5.2 billion mailpiece mail volume decline compared with the same
period last year, as shown in Table 3.

      TABLE 3. FY 2009 QUARTER 1 STATEMENTS OF OPERATIONS (unaudited)
                                     3 Months Ended December 3114
                                       2008                2007
     Operating revenue               $19,095              $20,369
     Operating expenses:
      Compensation and benefits       13,657              13,643
      Retiree health benefits          1,814               1,840
      Transportation                  1,750                1,842
13
     Dollar amounts shown in the Statement of Operations charts are in millions.
14
     Fiscal Year 2009 began on October 1, 2008 and will end on September 30, 2009.




                                                           14
Assessment of Overall Plant Efficiency                                        NO-MA-09-002



    Other                                   2,254                     2,358
  Total operating expenses                 $19,475                   $19,683
       (Loss) Income from
                                            (380)                      686
            operations
  Interest and investment
                                                6                        8
  income
  Other interest expense                     (10)                      (22)
        Net (Loss) Income                   $(384)                     $672

A 9.3 percent drop in volume in Quarter 1 of FY 2009 marked the eighth consecutive
quarter of accelerating volume declines. With no economic recovery expected for the
remainder of FY 2009, the Postal Service projects volume for the year will be down by
12 to 15 billion mailpieces. If current revenue and volume trends continue, the Postal
Service could experience a year-end net loss in FY 2009 significantly higher than FY
2008’s $2.8 billion loss.




                                           15
Assessment of Overall Plant Efficiency                                                            NO-MA-09-002



                         APPENDIX C: EFFICIENCY OF OPERATIONS

Postal Service management could use resources more efficiently. We compared FHP
productivity among the seven plant groupings15 and determined the median FHP
productivity for each group. As shown in Table 4, 157 plants throughout the country
operated at FHP productivity below the median.

                          TABLE 4. NUMBER OF PLANTS IDENTIFIED
                                WITH POTENTIAL SAVINGS

                                      PLANT                 NUMBER OF
                                     GROUPING                PLANTS
                                      GROUP 1                     24
                                      GROUP 2                     17
                                      GROUP 3                     16
                                      GROUP 4                     26
                                      GROUP 5                     25
                                      GROUP 6                     23
                                      GROUP 7                     26
                                        TOTAL                     157

If productivity were increased to the current median FHP productivity level, the Postal
Service could realize workhour savings of 22.9 million based upon FY 2008 usage.
This could produce a cost savings of more than $969 million16 in a single year. For
example, if Group 1 plants below the median increased their productivity to the average
of the above-median plants (846 pieces per hour); the Postal Service could save almost
10.1 million workhours – 44 percent of these 22.9 million workhours. See Table 5.




15
   For this analysis, we used plant groupings based on FY 2006 BPI Groupings (Workload). (See Appendix A.) We
based the savings on FHP mail volume, with productivity based on median performers.
16
   The workhour reductions were based on FY 2008 usage, using the PS-06 fully loaded FY 2008 clerk rate of $42.25
and the PS-05 fully loaded FY 2008 mailhandler rate of $43.17. (See Appendix K.)




                                                       16
Assessment of Overall Plant Efficiency                                          NO-MA-09-002



                    TABLE 5. BASELINE WORKHOUR REDUCTIONS

                                                                   PERCENTAGE
              PLANT    MEDIAN FHP GROUP PLANT
                                                                    OF TOTAL
             GROUPING PRODUCTIVITY  SAVINGS
                                                                     SAVINGS
             GROUP 1                846           10,063,889          44.03

             GROUP 2                926               4,215,631       18.44

             GROUP 3                908               2,526,837       11.06

             GROUP 4               1,002              3,138,620       13.73

             GROUP 5               1,141              1,517,845       6.64

             GROUP 6               1,223              584,850         2.56

             GROUP 7               1,368              807,650         3.53

             TOTAL                                22,855,321

The recommended savings of almost 22.9 million workhours represents a 17.29 percent
decrease in the 132,193,194 workhours used by plants that operated below the median
FHP productivity in FY 2008, and a 9.78 percent decrease in the 233,692,856
workhours used by all plants. See Table 6.

                      TABLE 6. OPPORTUNITY HOUR PERCENTAGE
                            FOR PLANTS BELOW-MEDIAN

                                    FY 2008
                 PLANT            FUNCTION 1 BASELINE
                                                      PERCENTAGE
                GROUPING          WORKHOUR REDUCTIONS
                                    USAGE
              GROUP 1               53,519,276        10,063,889     18.80
              GROUP 2               25,238,997         4,215,631     16.70
              GROUP 3               17,008,954         2,526,837     14.86
              GROUP 4               18,016,991         3,138,620     17.42
              GROUP 5               9,756,923          1,517,845     15.56
              GROUP 6               5,414,382          584,850       10.80
              GROUP 7               3,237,672          807,650       24.95
                TOTAL              132,193,194        22,855,321     17.29
               OVERALL
                                   233,692,856                        9.78
                TOTAL




                                                 17
Assessment of Overall Plant Efficiency                                   NO-MA-09-002



               APPENDIX D: ABC COST PER 1,000 PIECES FHP FY 2008

Using ABC, we calculated the costs per 1,000 pieces FHP. Costs were higher at plants
with below-median productivity and in some cases, were as much as 76 percent higher
at plants with lower productivity. For example, costs at Group 1 plants with below-
median productivity were $101 per 1,000 pieces FHP, compared with $57 per 1,000
pieces FHP at sites with above-median productivity. See Table 7.

                        TABLE 7. ABC COST PER 1,000 PIECES FHP

                       AVERAGE FY        AVERAGE FY
                        2008 COST         2008 COST                   PERCENTAGE
    PLANT                                                COST
                       FOR ABOVE-        FOR BELOW-                      COST
   GROUPING                                           DIFFERENCE
                         MEDIAN            MEDIAN                     DIFFERENCE
                         PLANTS            PLANTS
 GROUP 1                   $57               $101         $44               76
 GROUP 2                   $66               $86          $20               31
 GROUP 3                   $71               $94          $24               34
 GROUP 4                   $61               $84          $23               37
 GROUP 5                   $54               $73          $19               35
 GROUP 6                   $64               $66           $3                4
 GROUP 7                   $73               $128         $54               74




                                            18
Assessment of Overall Plant Efficiency                                                              NO-MA-09-002



         APPENDIX E: POTENTIAL SOURCES OF WORKHOUR REDUCTIONS

As shown in Table 8, we identified eight potential sources to improve efficiency and
achieve the 22.9 million workhour reductions. These potential sources total almost 18.9
million workhours, which represents 82.5 percent of the recommended savings.

            TABLE 8. POTENTIAL SOURCES OF WORKHOUR REDUCTIONS


                                                    POTENTAIL                      FOR DETAILED
      SOURCE OF WORKHOUR
                                                    WORKHOUR                     EXPLANATION SEE
          REDUCTION
                                                     SAVINGS                         APPENDIX

     Reduce Overtime                                   1,446,250                       Appendix F
     Reduce Handling Ratio                             3,921,048                       Appendix G
     Reduce Manual Sortation of
                                                       1,064,196                        Appendix I
     Letters
     Reduce Manual Sortation of
                                                        490,892                         Appendix I
     Flats
     Improve Efficiency in LDC 11
                                                       2,807,505                        Appendix H
     Operations
     Improve Efficiency in LDC 12                       998,020                         Appendix H
     Improve Efficiency in LDC 14
                                                       3,943,654                        Appendix I
     Operations
     Improve Efficiency in LDC 17
                                                       4,192,803                        Appendix J
     Operations
                TOTAL                                 18,864,368
         FHP PRODUCTIVITY
                                                      22,855,321                        Appendix C
               SAVINGS
             PERCENTAGE                             82.54 percent

Human Resources

The Postal Service may be able to reduce workhours through retirements and
elimination of casual employees. As of January 1, 2009, 18,606 employees were
eligible to retire. If all eligible employees retired, there would be an annual workhour
reduction of 32.6 million hours.17 As of that same date, there were also 4,188 casual
employees, elimination of which would reduce another 7.3 million workhours. See
Tables 9 and 10.



17
  A total of 5,879 career employees entered the workforce after January 1, 2003; however, present union contracts
protect these employees from layoffs. The contract expires in 2010.




                                                        19
   Assessment of Overall Plant Efficiency                                                          NO-MA-09-002



                           TABLE 9. POTENTIAL COMPLEMENT REDUCTION
                                 FOR PLANTS BELOW THE MEDIAN

                                                        CAREER
                   TOTAL                                ENTERED                                  PERCENTAGE
 PLANT                              RETIREMENT
                 FUNCTION 1                             ON DUTY        CASUALS       TOTAL         OF TOTAL
GROUPING                             ELIGIBLE
                 EMPLOYEES                               AFTER                                    EMPLOYEES
                                                         1/1/2003
GROUP 1                   30,030              8,189           1,874         1,500     11,563         39
GROUP 2                   13,504              3,669             807           799      5,275         39
GROUP 3                    8,976              2,107             942           579      3,628         40
GROUP 4                    9,743              2,574             900           561      4,035         41
GROUP 5                    5,140              1,065             663           416      2,144         42
GROUP 6                    2,933                649             414           263      1,326         45
GROUP 7                    1,651                353             279            70        702         43
TOTALS                    71,977             18,606           5,879         4,188     28,673         40



                           TABLE 10. POTENTIAL WORKHOUR REDUCTION
                               FOR PLANTS BELOW THE MEDIAN18

                                                      CAREER
                   TOTAL                              ENTERED                                    PERCENTAGE
 PLANT                             RETIREMENT
                 FUNCTION 1                           ON DUTY         CASUALS        TOTAL         OF TOTAL
GROUPING                            ELIGIBLE
                 EMPLOYEES                              AFTER                                     EMPLOYEES
                                                       1/1/2003
GROUP 1             52,762,710         14,388,073      3,292,618      2,635,500     20,316,191        39
GROUP 2             23,726,528          6,446,433      1,417,899      1,403,843      9,268,175        39
GROUP 3             15,770,832          3,701,999      1,655,094      1,017,303      6,374,396        40
GROUP 4             17,118,451          4,522,518      1,581,300        985,677      7,089,495        41
GROUP 5              9,030,980          1,871,205      1,164,891        730,912      3,767,008        42
GROUP 6              5,153,281          1,140,293        727,398        462,091      2,329,782        45
GROUP 7              2,900,807            620,221        490,203        122,990      1,233,414        43
TOTALS             126,463,589         32,690,742     10,329,403      7,358,316     50,378,461        40




   18
        Workhour savings are based on 1,757 hours per year.




                                                              20
Assessment of Overall Plant Efficiency                                                                 NO-MA-09-002



                                     APPENDIX F: OVERTIME USAGE

Postal Service management could stabilize overtime usage and save more than 1.4
million workhours. When overtime is not properly monitored and controlled, the Postal
Service incurs higher labor costs because these workhours are paid at a higher
premium rate.

For example, Group 1 plants operating above the median FHP productivity had an
average overtime percentage rate of 6.65 percent. If all Group 1 plants operated at this
overtime ratio, 417,003 workhours could be saved. Overall, the Postal Service could
save more than 1.4 million workhours if all plants with below-median FHP productivity
reduced their overtime percentages to the average of the plants above-median FHP
productivity. See Table 11.

                                 TABLE 11. OVERTIME CALCULATIONS

                                                 ABOVE-MEDIAN
                                                 PRODUCTIVITY                 GROUP
                            PLANT
                                                   – AVERAGE                WORKHOUR
                           GROUPING
                                                    OVERTIME                 SAVINGS
                                                  PERCENTAGE
                         GROUP 1                       6.65                     417,003
                         GROUP 2                       8.01                     378,471
                         GROUP 3                       7.98                     269,597
                         GROUP 4                       8.16                     153,970
                         GROUP 5                       8.96                      94,076
                         GROUP 6                       8.96                      65,329
                         GROUP 7                       8.38                      67,803
                         TOTAL                                                 1,446,250

Overtime and Workload Correlation

Plants with below-median productivity did not use overtime effectively in relation to
workload or FHP volume. For example, the average correlation between overtime
usage and workload for Group 1 plants above the median was .81, compared with .74
for plants below the median. The average correlation for Group 2 plants above the
median was .70, compared with .22 for plants below the median.19

This analysis indicates that, especially in the plants with the largest workloads, the
plants above the median productivity level used overtime more efficiently in relation to
volume or workload. See Table 12.


19
     The closer the correlation number is to one the better the correlation between the overtime usage and volume.




                                                           21
Assessment of Overall Plant Efficiency                          NO-MA-09-002



                       TABLE 12. COEFFICIENT OF CORRELATION –
                           FHP TO OVERTIME WORKHOURS

                                              ABOVE-   BELOW-
                       PLANT GROUPING
                                              MEDIAN   MEDIAN
                             GROUP 1           0.81     0.74
                             GROUP 2           0.70     0.22
                             GROUP 3           0.53     0.49
                             GROUP 4           0.54     0.53
                             GROUP 5           0.46     0.37
                             GROUP 6           0.62     0.61
                             GROUP 7           0.32     0.07




                                         22
Assessment of Overall Plant Efficiency                                                                     NO-MA-09-002



                            APPENDIX G: EXCESSIVE MAIL HANDLING

The Postal Service could save more than 3.9 million workhours by reducing the number
of times mail is handled. Excessive mail handling uses more workhours than necessary
to process mail volumes, which means that productivity is lower.20 In general, plants
with lower FHP productivity handled the mail more often than plants with high FHP
productivity did. For example, Group 1 plants operating above the median FHP
productivity had an average handling ratio of 1.86. If all Group 1 plants handled mail at
this ratio, almost 1.3 million workhours could be saved. Further, the Postal Service
could save more than 3.9 million workhours if all plants with below-median FHP
productivity handled mail at the average handling ratio of the plants above-median FHP
productivity. See Table 13.

                           TABLE 13. HANDLING RATIO CALCULATION

                                      ABOVE-MEDIAN
                                                      GROUP
                             PLANT PRODUCTIVITY –
                                                    WORKHOUR
                            GROUPING    AVERAGE
                                                     SAVINGS
                                     HANDLING RATIO
                            GROUP 1                     1.86                  1,296,350
                            GROUP 2                     1.90                   687,943
                            GROUP 3                     1.92                   132,216
                            GROUP 4                     1.88                   733,871
                            GROUP 5                     1.74                   617,387
                            GROUP 6                     1.74                   326,788
                            GROUP 7                     1.68                   126,494
                            TOTAL                                             3,921,048




20
   The handling ratio is calculated by comparing the FHP and the total piece handlings (TPH). TPH is the number of
handlings necessary to distribute each piece of mail from the time of receipt to dispatch. As an example, if the
handling ratio is 1.5, the average piece of mail receives 1.5 handlings from the time it is received until it is dispatched
from the facility. This performance information can be used to measure performance and efficiency. This ratio can
vary depending on mail flows and operating plans.




                                                            23
Assessment of Overall Plant Efficiency                                     NO-MA-09-002



             APPENDIX H: AUTOMATED AND MECHANIZED EQUIPMENT

Plants that operated below the median FHP productivity generally had lower productivity
in automated and mechanized operations. If all plants with below-median FHP
productivity increased the pieces handled per hour to the average of the plants with
above-median FHP productivity, the Postal Service could save more than 2.8 million
workhours in automated operations and almost 1 million workhours in mechanized
operations. In addition, plants with below-median productivity generally had lower
throughput, higher jams per 10,000 pieces, and higher reject rates on the DBCSs and
on the AFSM 100s.

Automated Letter Mail Processing – LDC 11

Plants that operated below the median FHP productivity generally had lower productivity
in LDC 11. For example, Group 1 plants operating above the median FHP productivity
had an average LDC 11 productivity of 3,941 pieces per hour. If all Group 1 plants
operated at this productivity level, 1.2 million workhours could be saved. Further, the
Postal Service could save more than 2.8 million workhours if all plants with below-
median FHP productivity increased the pieces handled per hour in LDC 11 operations to
the average of the plants with above-median FHP productivity. See Table 14.

                                   TABLE 14. LDC 11 FY 2008

                                  ABOVE-MEDIAN
                                                  GROUP
                         PLANT PRODUCTIVITY –
                                                WORKHOUR
                        GROUPING AVERAGE LDC 11
                                                 SAVINGS
                                  PRODUCTIVITY
                        GROUP 1       3,941      1,228,559
                        GROUP 2            3,790         516,208
                        GROUP 3            3,556         197,490
                        GROUP 4            4,076         516,159
                        GROUP 5            4,692         264,873
                        GROUP 6            4,813         16,656
                        GROUP 7            5,495         67,559
                           TOTAL                        2,807,506

Mechanized and Automated Flat Mail Processing – LDC 12

Plants with FHP productivity lower than the median also had lower LDC 12 productivity
on average. For example, Group 1 plants operating above the median FHP productivity
had an average LDC 12 productivity of 1,602 pieces per hour. If all Group 1 plants




                                              24
Assessment of Overall Plant Efficiency                                     NO-MA-09-002



operated at or above the LDC 12 median productivity of 1,602 pieces per hour, 251,573
workhours could be saved. Further, the Postal Service could save more than 998,015
workhours if all plants with below-median FHP productivity increased the pieces
handled per hour in LDC 12 operations to the average of the plants with above-median
FHP productivity. See Table 15.

                                   TABLE 15. LDC 12 FY 2008

                                  ABOVE-MEDIAN
                                                  GROUP
                         PLANT PRODUCTIVITY –
                                                WORKHOUR
                        GROUPING AVERAGE LDC 12
                                                 SAVINGS
                                  PRODUCTIVITY
                        GROUP 1       1,602       251,573
                        GROUP 2            1,470         117,748
                        GROUP 3            2,007         143,229
                        GROUP 4            1,675         152,458
                        GROUP 5            1,942         198,216
                        GROUP 6            1,576         114,179
                        GROUP 7            1,336         20,613
                           TOTAL                         998,015

Throughput, Jam Rates, and Reject Rates

The average throughput for the DBCSs and the AFSM 100s were lower in Group 1
plants with below-median FHP productivity than in plants with above-median
productivity for the DBCSs and AFSM 100s. In addition, the DBCSs’ and the AFMS
100s’ jam rate and reject rates were higher in plants with below median FHP
productivity. These trends indicate management at these plants may not be properly
instructing employees on procedures for jogging and culling the mail. In addition,
equipment at these plants may not be properly or sufficiently maintained. See Tables
16 and 17.




                                              25
Assessment of Overall Plant Efficiency                                   NO-MA-09-002



                             TABLE 16. GROUP 1 DBCSs FY 2008

                                           AVERAGE      JAM     REJECT
               GROUP 1 SITES
                                         THROUGHPUT     RATE     RATE
               ABOVE-MEDIAN                 37,754       2.22    1.0

               BELOW-MEDIAN                 37,348       2.37    1.2

                 DIFFERENCE                  406         -.15     -.2



                          TABLE 17. GROUP 1 AFSM 100s FY 2008

                                           AVERAGE      JAM     REJECT
               GROUP 1 SITES
                                         THROUGHPUT     RATE     RATE
               ABOVE-MEDIAN                15,335       25.14     4.6

               BELOW-MEDIAN                14,775       29.40     5.8

                 DIFFERENCE                 560         -4.26     -1.1




                                                   26
Assessment of Overall Plant Efficiency                                        NO-MA-09-002



                             APPENDIX I: MANUAL OPERATIONS

Opportunities to improve efficiency in manual operations were twofold:

    •   Plants with FHP productivity lower than the median also had lower productivity in
        manual operations.

    •   Postal Service management did not take full advantage of automated and
        mechanized equipment and consequently worked an excessive amount of mail
        manually.

Manual Operations – LDC 14

Plants with FHP productivity lower than the median also had lower productivity in LDC
14. For example, Group 1 plants operating above the median FHP productivity had an
average LDC 14 productivity of 313 mailpieces per hour. If all Group 1 plants operated
at the average of 313 mailpieces per hour, more than 1.8 million workhours could be
saved. Further, the Postal Service could save more than 3.9 million workhours if all
plants with below-median FHP productivity increased the mailpieces handled per hour
in LDC 14 operations to the average of the plants above-median FHP productivity. See
Table 18.

                                   TABLE 18. LDC 14 FY 2008

                                   ABOVE-MEDIAN
                                                   GROUP
                          PLANT   PRODUCTIVITY–
                                                 WORKHOUR
                         GROUPING AVERAGE LDC 14
                                                  SAVINGS
                                   PRODUCTIVITY
                         GROUP 1            313         1,838,198
                         GROUP 2            317          786,852
                         GROUP 3            319          308,538
                         GROUP 4            366          466,384
                         GROUP 5            504          328,125
                         GROUP 6            446           88,912
                         GROUP 7            612          126,645
                         TOTAL                          3,943,654




                                              27
Assessment of Overall Plant Efficiency                                     NO-MA-09-002



Excess Manual Letter Mail

Plants that operated at less than the median FHP productivity levels generally worked
an excessive amount of letter mail manually. The Postal Service target is that no more
than 2.5 percent of the total letter volume should be sorted manually. However, in FY
2008, plants with less than median FHP productivity sorted an excess of more than
761.5 million letters manually. The largest percentage of excess manual letters was at
Group 1 plants. The Postal Service could save more than 1 million workhours by using
automation to sort letter mail, instead of manual sortation. See Table 19.

                           TABLE 19. EXCESS MANUAL LETTERS

                    EXCESS LETTERS
                                                       GROUP  PERCENTAGE
           PLANT    WORKED OVER 2.5
                                                     WORKHOUR OF EXCESS
          GROUPING PERCENT OF TOTAL
                                                      SAVINGS   LETTERS
                    LETTER VOLUME
          GROUP 1     234,269,642                     322,342      30.76
          GROUP 2                 175,998,689         284,026      23.11
          GROUP 3                 108,154,986         188,235      14.20
          GROUP 4                 95,244,758          133,957      12.51
          GROUP 5                 53,885,719           62,109       7.08
          GROUP 6                 36,677,624           40,505       4.82
          GROUP 7                 57,293,942           33,022       7.52
             TOTAL                761,525,359         1,064,196

Excess Manual Flat Mail

Plants that operated at less than the median FHP productivity levels also generally
worked an excessive amount of flat mail manually. The Postal Service target is that no
more than 6 percent of the total flat volume should be sorted manually. However, in FY
2008, plants with less than median FHP productivity sorted an excess of nearly 274.2
million flats manually. The largest percentage of excess manual flats was at Group 1
plants. The Postal Service could save 490,892 workhours by using automation to sort
flat mail, instead of manual sortation. See Table 20.




                                                28
Assessment of Overall Plant Efficiency                                  NO-MA-09-002



                             TABLE 20. EXCESS MANUAL FLATS

                   EXCESS FLATS
                                                  GROUP      PERCENTAGE
         PLANT    WORKED OVER 6
                                                WORKHOUR      OF EXCESS
        GROUPING PERCENT OF TOTAL
                                                 SAVINGS        FLATS
                   FLAT VOLUME
        GROUP 1     134,598,120                  269,864        49.09
        GROUP 2               37,084,930         80,527         13.53
        GROUP 3                8,978,977         23,139         3.27
        GROUP 4               22,662,777         33,928         8.27
        GROUP 5               35,939,505         51,737         13.11
        GROUP 6               15,100,724         17,867         5.51
        GROUP 7               19,807,176         13,829         7.22
           TOTAL             274,172,209         490,892
.




                                           29
Assessment of Overall Plant Efficiency                                     NO-MA-09-002



                       APPENDIX J: ALLIED OPERATIONS – LDC 17

Plants with below-median FHP productivity used a greater percentage of workhours in
allied workhours, LDC 17, than plants with above-median FHP productivity. As an
example, Group 1 plants with above-median FHP productivity used 39 percent of
workhours in LDC 17. By standardizing the percent of workhours used in LDC 17 as
compared with total Function 1 workhours used, Group 1 plants could reduce more than
1.6 million workhours. Further, by standardizing the percent of workhours used in LDC
17 in all plant groups, the Postal Service could save nearly 4.2 million workhours. See
Table 21.

                                   TABLE 21. LDC 17 FY 2008

                                  ABOVE-MEDIAN
                                  PRODUCTIVITY
                                                  GROUP
                          PLANT  AVERAGE LDC 17
                                                WORKHOUR
                        GROUPING PERCENTAGE TO
                                                 SAVINGS
                                 TOTAL FUNCTION
                                        1
                        GROUP 1       39.26      1,686,740
                        GROUP 2             34.19        632,279
                        GROUP 3             35.31        825,712
                        GROUP 4             34.02        450,920
                        GROUP 5             32.89        264,022
                        GROUP 6             32.58        172,540
                        GROUP 7             32.58        160,590
                           TOTAL                         4,192,803




                                              30
Assessment of Overall Plant Efficiency                             NO-MA-09-002



                 APPENDIX K: CALCULATION OF QUESTIONED COSTS

 RECOMMENDED
  ACTION AND                                                 COST AVOIDANCE
                               WORKHOUR           WORKHOUR
   EMPLOYEE                                                    BASED ON 1
                               REDUCTION            RATE
   CATEGORY                                                    FISCAL YEAR
    IMPACTED
   Level 6 Clerk                18,662,518         $42.25      $788,501,550
Level 5 Mailhandler              4,192,803         $43.17      180,994,157
      TOTAL                     22,855,321                     $969,495,708




                                             31
Assessment of Overall Plant Efficiency                      NO-MA-09-002



                        APPENDIX L: MANAGEMENT’S COMMENTS




                                         32
Assessment of Overall Plant Efficiency        NO-MA-09-002




                                         33
Assessment of Overall Plant Efficiency        NO-MA-09-002




                                         34
Assessment of Overall Plant Efficiency        NO-MA-09-002




                                         35
